NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



        SEMIANNUAL REPORT
                TO
           THE CONGRESS

          April 1 – September 30, 2012
TABLE OF CONTENTS

Inspector General’s Message ............................................................................................................................. i

The NCUA and Office of Inspector General Missions .............................................................................. 1

Introduction ............................................................................................................................................................ 2

NCUA Hightlights .................................................................................................................................................. 5

Federally Insured Credit Union Highlights ................................................................................................ 8

Legislative Highlights ......................................................................................................................................... 9

Office of the Inspector General .................................................................................................................... 11

Audit Activity ...................................................................................................................................................... 12

Investigative Activity ....................................................................................................................................... 20

Legislative and Regulatory Reviews .......................................................................................................... 23

Table I: Inspector General Issued Reports with Questioned Costs ............................................... 25

Table II: Inspector General Issued Reports with Recommendations that Funds be Put to
Better Use ............................................................................................................................................................. 26

Table III: Summary of OIG Activity October 1, 2011 through March 30, 2012 .......................... 27

Index of Reporting Requirements .............................................................................................................. 28

Appendix A: NCUA System Review Report (SEC OIG Report No. 478) ......................................... 29
OIG Semiannual Report                                                           April 1, – September 30, 2012




                             INSPECTOR GENERAL'S MESSAGE
                         TO THE NCUA BOARD AND THE CONGRESS

     On behalf of the Office of Inspector General (OIG) of the National Credit Union Administration
     (NCUA), I am pleased to present our Semiannual Report to Congress highlighting our
     accomplishments and ongoing work for the six-month period ending September 30, 2012.

     Of particular note this reporting period, on the audit side we issued our Review of NCUA’s
     Examination and Complaint Processes for Small Credit Unions, at the request of Senator Tim
     Johnson, Chairman, United States Senate, Committee on Banking, Housing, and Urban Affairs;
     issued our Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability
     Oversight Council Information; completed and reported on the financial statement audits of the
     NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, the Community
     Development Revolving Loan Fund, and the Temporary Corporate Credit Union Stabilization
     Fund, all of which received “clean,” unqualified opinions; and conducted four (4) Material Loss
     Reviews. On the investigative side, the OIG completed and reported on two investigations, one
     in response to an allegation we received that an NCUA Regional Director had made false
     statements concerning a state credit union regulator and the other involving allegations of
     harassment and retaliation against credit union officials by an NCUA examiner.

     We also responded to a request from Rep. Darrell Issa, Chairman, Committee on Oversight and
     Government Reform, sent to 73 Federal Inspectors General (IG), seeking information on the
     issuance of seven-day letters, used by IGs to report particularly flagrant problems to Congress
     as required under section 5(d) of the Inspector General Act. Chairman Issa’s request stemmed
     from concern over the delay Congress experienced in learning of the General Services
     Administration (GSA) conference scandal.

     Pursuant to the Dodd-Frank Wall Street Reform and Consumer Protection Act, I am a member
     of the Council of Inspectors General on Financial Oversight (CIGFO), which comprises the
     Inspectors General of several financial regulatory agencies and facilitates the sharing of
     information, with a focus on concerns that may apply to the broader financial sector and ways to
     improve financial oversight. The CIGFO generally meets quarterly. During the reporting period,
     the CIGFO issued its second annual report highlighting the concerns and recommendations of
     the member Inspectors General, as well as issues that may apply to the broader financial
     sector.




                                                    i
OIG Semiannual Report                                                          April 1, – September 30, 2012


     I wish to express my appreciation to the NCUA Board and senior management for their
     consistent cooperation and support of the work of the OIG. Moreover, I would like to thank all
     the OIG staff for their continued hard work and dedication. I look forward to all that we will
     accomplish in the coming months.




                                         William A. DeSarno
                                         Inspector General




                                                   ii
OIG Semiannual Report                                                           April 1, – September 30, 2012




                                       THE NCUA MISSION

     NCUA’s charge is to provide, through regulation and supervision, a safe and sound credit union
     system which promotes confidence in the national system of cooperative credit.




                        THE OFFICE OF INSPECTOR GENERAL MISSION

     The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and
     operations, and detects and deters fraud, waste, and abuse, thereby supporting the NCUA’s
     mission of monitoring and promoting safe and sound federally insured credit unions.


     We accomplish our mission by conducting independent audits, investigations, and other
     activities, and by keeping the NCUA Board and the Congress fully and currently informed of our
     work.




                                                    1
OIG Semiannual Report                                                            April 1, – September 30, 2012




                                          INTRODUCTION

 The NCUA was established as an independent, federal regulatory agency on March 10, 1970. The
 agency is responsible for chartering, examining, supervising, and insuring federal credit unions. It also
 insures state-chartered credit unions that have applied for insurance and have met National Credit
 Union Share Insurance requirements. The NCUA is funded by the credit unions it supervises and
 insures. As of June 30, 2012, the NCUA was supervising and insuring 4,366 federal credit unions and
 insuring 2,595 state-chartered credit unions, a total of 6,961 institutions. This represents a decline of
 81 federal and 52 state-chartered institutions since December 31, 2011, for a total decline of 133 credit
 unions nationwide, primarily as a result of mergers and liquidations.




                                    Federally Insured Credit Unions


                  8000

                  7000
                            2959
                  6000             2840       2750
                                                         2647     2595
                  5000

                  4000                                                                     FISCUs
                                                                                           FCUs
                  3000
                            4847   4714       4589       4447     4366
                  2000

                  1000

                        0
                            2008   2009       2010       2011     2012




 The NCUA operates under the direction of a Board composed of three members. Board members are
 appointed by the President and confirmed by the Senate. They serve six-year terms. Terms are
 staggered, so that one term expires every two years. The Board is responsible for the management of
 the NCUA, including the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity
 Facility, the Community Development Revolving Loan Fund, and the Temporary Corporate Credit
 Union Stabilization Fund.




                                                     2
OIG Semiannual Report                                                           April 1, – September 30, 2012


 The NCUA executes its program through its central office in Alexandria, Virginia and regional offices in
 Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. The
 NCUA also operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
 refer to the NCUA organizational chart below.




                                                    3
OIG Semiannual Report                                                           April 1, – September 30, 2012


     The NCUA Board adopted its 2012 budget of $236,854,786 on November 17, 2011. The Full-
     Time Equivalent (FTE) staffing authorization for 2012 is 1,259.50 representing an increase of 33
     FTEs from 2011.




                                                NCUA Budget Dollars
                                  250


                                  200
                   Millions




                                  150


                                  100


                                   50


                                    0
                                         2008   2009          2010      2011      2012




                                                NCUA Authorized Staff
                                  1300
                                  1250
                                  1200
                Employees (FTE)




                                  1150
                                  1100
                                  1050
                                  1000
                                  950
                                  900
                                  850
                                         2008   2009          2010      2011      2012




                                                          4
OIG Semiannual Report                                                             April 1, – September 30, 2012




                                         NCUA HIGHLIGHTS

 NCUA Board Member Hyland Departs NCUA Board
 On September 20, 2012, NCUA Board Member Christiane Gigi Hyland announced her intention to
 resign from the NCUA Board, effective October 5, 2012. Hyland was sworn in as a Board member on
 November 18, 2005, for a six-year term and worked more than a year after her term expired on August
 2, 2011. Prior to joining the NCUA Board, Hyland’s career spanned fourteen years serving the credit
 union community as an attorney and advocate.

 During her seven years on the NCUA Board, one of Hyland’s most important initiatives was updating
 rules to raise the small credit union asset threshold. At the September 20, 2012, Board meeting—
 where Hyland publicly announced her resignation—the Board approved for public comment a
 proposed rule to accomplish Hyland’s goal.

 NCUA has a full-time, three-member Board appointed by the President of the United States and
 confirmed by the Senate. No more than two Board members can be from the same political party, and
 each member serves a staggered six-year term. Current NCUA Chairman Debbie Matz is a Democrat
 and Board Member Michael E. Fryzel is a Republican. Unless President Obama nominates another
 candidate for Hyland’s seat before the election, the position will likely remain vacant for some months.
 In the interim, Chairman Matz and Board Member Fryzel will have to agree on new regulations and
 other Board decisions until a third Board member is in place.

 NCUA Executive Director Dave Marquis to Retire
 After 34 years at NCUA, Executive Director David Marquis will retire at the end of 2012. Marquis
 started his career at NCUA in 1978. Since that time, the credit union industry’s total assets grew
 1,860 percent from $51.4 billion to more than $1 trillion. Marquis is credited with working to ensure the
 stability of credit unions and the industry through five recessions over more than three decades.

 Marquis has overseen NCUA’s day-to-day operations since his appointment as Executive Director in
 January 2009. For the previous 14 years, Marquis served as Director of the Office of Examination and
 Insurance, where he was responsible for the safe and sound operation of the National Credit Union
 Share Insurance Fund (NCUSIF) and monitoring the examination and supervision procedures at
 federally insured credit unions. He has also served as a supervisory examiner, regional manager,
 associate regional director, regional director, and Deputy Director of the Office of Examination and
 Insurance. Marquis began his career with NCUA as an examiner in Baltimore, Maryland. As the
 longest-serving Director of the Office of Examination and Insurance, Marquis mentored many of the
 agency’s current executives and managers.

 New Office of National Examinations and Supervision in 2013
 On July 26, 2012, Chairman Matz announced the creation of an Office of National Examinations and
 Supervision, changing NCUA’s structure to serve an evolving credit union industry. The change will
 reorganize NCUA’s existing resources to create an Office of National Examinations and Supervision to
 enhance oversight of the nation’s largest consumer credit unions—those with more than $10 billion in
 assets—and also assume supervision of corporate credit unions.

 NCUA currently spends 45 percent of examination hours on credit unions with less than $50 million in
 assets, yet this group holds only seven percent of overall industry assets. Meanwhile, the largest

                                                     5
OIG Semiannual Report                                                              April 1, – September 30, 2012


 credit unions—those with more than $1 billion in assets—hold 47 percent of industry assets and
 receive only 10 percent of examination hours. To address this imbalance, NCUA will concentrate
 more hours and more attention where more of the industry’s risk is held. The reallocation of examiner
 resources from smaller credit unions to the largest ones means examiners will spend less time in well-
 performing small credit unions.

 NCUA Initiative Expands Low-Income Designation Opportunities
 As part of its new initiative to streamline the process for federal credit unions to receive a low-income
 credit union (LICU) designation, on August 7, 2012, NCUA sent letters to more than 1,000 credit
 unions notifying them of their eligibility for the LICU designation. The initiative cuts regulatory burdens
 by implementing a rule to streamline the process for federal credit unions to become LICUs. NCUA
 estimates that, if all qualified credit unions elect to participate, it could unlock between $250 million
 and $500 million in new business capital in the near term. The initiative could also nearly double the
 number of existing LICUs, from 1,121 to 2,122, and nearly triple membership in LICUs, from 6.5 million
 to 17 million.

 The LICU designation offers several significant benefits to credit unions—and, therefore, their
 communities—including:

      •   Exemption from the 12.25 percent statutory cap on Member Business Loans (MBL) by credit
          unions;
      •   Ability to accept non-member deposits from any source;
      •   Access to NCUA’s Office of Small Credit Union Initiatives programs, including the grants and
          loans provided by the Community Development Revolving Loan Fund and the consulting
          services offered by NCUA’s Economic Development Specialists;
      •   Authorization to obtain supplemental capital, such as from the U.S. Treasury’s Community
          Development Financial Institutions program, private benefactors and foundations, and
          institutions interested in receiving Community Reinvestment Act credit.

 To qualify as a LICU, a majority of a federal credit union’s membership must meet low-income
 thresholds based on 2010 Census data.

 NCUA’s initiative was incorporated into a relief and recovery package for drought-stricken states
 announced at the White House on August 7. Of the LICU-eligible institutions, 470 federal credit
 unions—representing 47 percent of potential new LICUs, 52 percent of potential new assets, and 54
 percent of potential new members—are headquartered in states identified by the National Oceanic
 and Atmospheric Administrative as having “extreme” drought conditions.

 Stabilization Fund Assessment Set
 At an open meeting on July 24, 2012, the NCUA Board approved an assessment for the Temporary
 Corporate Credit Union Stabilization Fund (Stabilization Fund) at 9.5 basis points. The 2012
 assessment falls within the projected range of 8 to 11 basis points and represents a significant decline
 from the 25 basis points assessment for 2011.

 The funds generated by the assessment, along with funds borrowed from the U.S. Treasury, will pay
 $2.66 billion in net obligations due in 2012, primarily principal and interest on maturing Medium Term
 Notes issued by corporate credit unions and guaranteed by the Stabilization Fund.
 The 2012 assessment will raise an estimated $790.5 million. With the 2012 assessment, federally
 insured credit unions will have paid a total of $4.1 billion in expenses for the Corporate System
 Resolution Program, including $337.4 million in 2009, nearly $1 billion in 2010, and almost $2 billion in

                                                      6
OIG Semiannual Report                                                           April 1, – September 30, 2012


 2011. After 2012, federally insured credit unions can expect to pay between $1.9 billion and $5.2
 billion in total remaining assessments from 2013 through 2021, based on current loss estimate
 projections from the liquidation estates of the five failed corporate credit unions.

 The NCUA Board also authorized up to $2.5 billion in Stabilization Fund borrowing from the U.S.
 Treasury. The timing and amount of borrowing is consistent with original cash needs and uses
 envisioned under the Corporate System Resolution Program, including an appropriate contingency
 amount.

 Stabilization Fund Earns Clean 2011 Audit
 On June 21, 2012, NCUA’s independent financial auditor, KPMG LLP, issued an unqualified, or clean,
 opinion on the Temporary Corporate Credit Union Stabilization Fund (Stabilization Fund) 2011
 financial statements. This marked the second year in a row NCUA received a clean audit opinion from
 KPMG. Since releasing the 2010 Stabilization Fund audit, NCUA has continued to strengthen the
 systems needed to handle the Stabilization Fund’s many complex transactions, including those related
 to the NCUA Guaranteed Notes. NCUA also improved its internal control environment which allowed
 the 2011 audited financial statements to be completed six months earlier than the 2010 statements.

 The Stabilization Fund provides NCUA with the flexibility needed to manage the effect of the costs to
 the credit union system associated with the losses on troubled mortgage-backed securities purchased
 by the five failed corporate credit unions. NCUA liquidated these five failed credit unions in 2009 and
 2010.

 The Stabilization Fund’s full audited financial statements can be found at:
 http://www.ncua.gov/about/Leadership/CO/OIG/Documents/OIG-12-07CorpStabilFundAudit.pdf

 Chairman Matz Hosts NCUA “Listening Sessions” With Credit Unions
 From May through July 2012, NCUA Board Chairman Debbie Matz hosted six “Listening Sessions”
 across America, covering all five NCUA regions. The goal of the sessions was to discuss issues face-
 to-face and hear directly from credit union officials and volunteers about how NCUA can improve its
 examination process, how it can reduce or streamline its regulations, and other areas of concern.
 Participants were afforded the opportunity to dialog with NCUA Board members, senior NCUA staff,
 and supervisory examiners from the NCUA Region co-hosting each Listening Session. Participants
 were also invited to contribute to roundtable discussions with their peers.

 Board Member Fryzel Highlights Importance of Credit Unions Understanding Member Needs
 During his address on September 27, 2012, at the Combined Council of America’s Credit Unions’ 31st
 Annual Conference, NCUA Board Member Michael E. Fryzel highlighted the importance of credit
 unions understanding the needs of their members and ensuring that they get it in the “least-cost,
 highest-quality manner possible.” In his first address before the automobile-related credit unions,
 Board Member Fryzel praised the group for doing the “heaving lifting” and for “making a difference in
 families’ lives.” Board Member Fryzel discussed the struggles the automobile industry has faced and
 the effect these struggles have had on the Council’s credit unions. He commended the Council’s
 credit unions for their large rate of member growth and their healthy range of net worth and urged
 them to continue to make a difference.




                                                    7
OIG Semiannual Report                                                              April 1, – September 30, 2012


                        FEDERALLY INSURED CREDIT UNION HIGHLIGHTS

 Credit unions submit quarterly call reports (financial and operational data) to the NCUA. An NCUA staff
 assessment of the June 30, 2012, quarterly call reports submitted by all federally insured credit unions
 found that key financial indicators are mixed.

 Key Financial Indicators Mixed
 Looking at the June 30, 2012 quarterly statistics for major balance sheet items and key ratios shows
 the following for the nation’s 6,961 federally insured credit unions: assets grew 9.55 percent; net worth
 to assets ratio decreased from 10.21 to 10.16 percent; the loan to share ratio decreased from 69.07
 percent to 66.96 percent. However, the delinquency ratio decreased from 1.60 to 1.20 percent; and
 credit union return on average assets increased from .67 percent to .86 percent.

 Savings Shifting to Regular Shares
 Total share accounts increased 10.01 percent. Regular shares increased 19.57 percent. Regular
 shares comprise 30.94 percent of total share accounts; share certificates comprise 23.20 percent;
 money market shares comprise 22.80 percent; share draft accounts comprise 12.66 percent; and all
 other share accounts comprise 10.40 percent.

 Loan Volume Flat
 Loans increased 3.6 percent resulting in an increase in total loans by $10.3 billion. Total net loans of
 $582 billion comprise 57.73 percent of credit union assets. First mortgage real estate loans are the
 largest single asset category with $240.3 billion accounting for 41.31 percent of all loans. Other real
 estate loans of $76.5 billion account for 13.15 percent of all loans. Used car loans of $111 billion were
 19.08 percent of all loans, while new car loans amounted to $59.9 billion or 10.3 percent of total loans.
 Credit card loans totaled $36.9 billion or 6.35 percent of total loans and other loans totaled $57.1 billion
 for 9.81 percent of total loans.




                                                      8
OIG Semiannual Report                                                               April 1, – September 30, 2012




                                     LEGISLATIVE HIGHLIGHTS

 Senate Introduces S. 3394, ATM Fee Disclosure Requirement and the Financial Institution “Privileged
 Information” Protection Bill
 On July 16, 2012, Senate Banking Committee Chairman Tim Johnson, Ranking Member Richard
 Shelby, and others introduced S. 3394, a bill that seeks repeal of the dual ATM disclosure requirement
 and the financial institution “privileged information” protection bill. The measure was introduced with
 Senators Johanns, Crapo, Tester, Brown, McCaskill, and Hagan signed on as co-sponsors. Once
 through the Senate, the bill is expected to win approval in the House, which has already passed both
 provisions reflected in the new Senate bill.

 Among the bill’s provisions are the following:

      •   The ATM measure would amend the Electronic Funds Transfer Act to eliminate the
          requirement to post placards on ATMs regarding fees. It would leave intact the
          requirement to disclose fees on the screen at a point where the consumer could still
          cancel a transaction. Eliminating the placard requirement would end the stream of
          frivolous lawsuits aimed at ATM owners when placards are stolen or defaced.
      •   The privileged information bill adds the Consumer Financial Protection Bureau
          (CFPB) to the list of agencies required to keep confidential sensitive data provided
          by financial institutions. This requirement already applies to NCUA and banking
          regulators.

 House Introduces Bill to Protect the Privilege of Document Shared by Non-Banks with Federal and State
 Agencies
 On July 12, 2012, Rep. Jim Renacci introduced H.R. 6125, a bill to amend the Federal Deposit
 Insurance Act (FDIA) and the Federal Credit Union Act (FCUA) to protect the privilege of documents
 shared by non-banks with federal regulators, including the CFPB. Specifically, the bill declares that
 certain federal agencies, including NCUA, shall not be deemed to have waived any confidentiality
 application for information by either transferring such information to, or permitting it to be used by,
 another covered agency or specified federal agencies. H.R. 6125 reflects parallel FCUA treatment,
 unlike earlier versions of the bill.

 Congress Continues Debating Cybersecurity Legislation
 Both Chambers of Congress continued to debate cybersecurity legislation during the reporting period,
 in the wake of the introduction of S. 2105, the Cybersecurity Act of 2012, introduced by Senators
 Lieberman, Collins, Rockefeller, and Feinstein in February 2012. The bill requires the Department of
 Homeland Security (DHS) to establish standardized cybersecurity protocols for private companies
 engaged in the operation of the nation’s critical infrastructure. The bill also calls for increased sharing
 of cyber-threat information between private companies and the federal government, and replaces the
 industry’s longstanding regulator on issues of cybersecurity—the Department of Treasury—with a new
 agency, DHS. Finally the bill includes significant revisions to the Financial Information Security
 Management Act.




                                                      9
OIG Semiannual Report                                                         April 1, – September 30, 2012


 NCUA Works to Develop Diversity Standards and Assessments to Comply with Dodd-Frank Act
 Section 342 of the Dodd-Frank Wall Street Reform and Consumer Protection Act, a provision that
 concerns improving diversity and minority inclusion, requires NCUA to develop standards that may
 ultimately affect some or all credit unions. Specifically, Congress required each federal financial
 services regulatory agency, including NCUA, to establish an Office of Minority and Women Inclusion
 (OMWI). These offices are responsible for all matters at each agency relating to diversity in
 management, employment, and business activities. Additionally, Section 342 applies to all entities
 regulated by a covered financial government agency, as well as the contractors providing services to
 those entities.

 In January 2011, NCUA established its OMWI, headed by Tawana Y. James. Since then, the office
 has established standards at NCUA for equal employment opportunity, workforce diversity, and
 increased participation of minority- and women-owned businesses in agency programs and contracts.
 NCUA’s OMWI also submitted NCUA’s first annual report to Congress on efforts to comply with this
 law. NCUA posted this report at http://go.usa.gov/7aw.

 OMWI Director James and her staff are now participating on a regulated entities subcommittee
 consisting of representatives from each covered agency to ensure a common framework and
 consistent approach among the agencies in implementing Section 342 with respect to each agency’s
 regulated entities. NCUA’s OMWI has also already begun outreach efforts to credit unions, trade
 groups, and advocacy organizations to gather input on drafting credit union diversity standards.




                                                  10
OIG Semiannual Report                                                          April 1, – September 30, 2012




                            OFFICE OF THE INSPECTOR GENERAL

 The Office of the Inspector General was established at the NCUA in 1989 under the authority of the
 Inspector General Act of 1978, as amended. The staff consists of the Inspector General, Deputy
 Inspector General, Counsel to the Inspector General/Assistant Inspector General for Investigations,
 Director of Investigations, three Senior Auditors, Senior Information Technology Auditor, and Office
 Manager.

 The Inspector General reports to, and is under the general supervision of, the NCUA Board. The
 Inspector General is responsible for:
         1. Conducting, supervising, and coordinating audits and investigations of all NCUA programs
            and operations;
         2. Reviewing policies and procedures to ensure efficient and economic operations as well as
            preventing and detecting fraud, waste, and abuse;
         3. Reviewing existing and proposed legislation and regulations to evaluate their impact on the
            economic and efficient administration of agency programs; and
         4. Keeping the NCUA Board and the Congress apprised of significant findings and
            recommendations.




                                                   11
OIG Semiannual Report                                                             April 1, – September 30, 2012




                                          AUDIT ACTIVITY

     AUDIT REPORTS ISSUED

 OIG-12-07 – June 22, 2012
 2011 NCUA Financial Statement Audit of the Temporary Corporate Credit Union Stabilization Fund
 Our contracting audit firm, KPMG LLP, issued its opinion on the 2011 financial statements of the
 National Credit Union Administration Temporary Corporate Credit Union Stabilization Fund (TCCUSF).
 The auditors found that the financial statements presented fairly the financial position of the agency fund
 as of December 31, 2011 and issued an unqualified opinion on the TCCUSF’s financial statements.

 OIG-12-08 – June 25, 2012
 Review of NCUA Red Flag Reports
 Our objective for this review was to determine whether NCUA examiners were identifying and
 addressing high risk areas. During our analysis we found that examiners addressed high risk areas
 at sampled credit unions. We found that examiner actions to address potential issues included
 performing follow-up for open Document of Resolution (DOR) items; onsite and offsite contacts;
 drafting for issuance and/or issuing Regional Director Letters and Letters of Understanding and
 Agreement; changing the overall CAMEL rating; and elevating discussion items to examiner’s
 findings. We determined that regional management and staff were monitoring potential high areas
 of risk and ensuring issues were or would be resolved. Accordingly, we did not make any formal
 recommendations.

 OIG-12-09 – June 27, 2012
 Review of NCUA’s Policies, Procedures and Practices Regarding Financial Stability Oversight Council
 Information
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) conducted an audit
 of NCUA’s policies, procedures, and practices regarding Financial Stability Oversight Council (FSOC)-
 related information. Our objective was to review NCUA’s policies, procedures, and practices for
 ensuring FSOC-related information that it collects, shares, or deliberates is adequately protected from
 unauthorized disclosure. We conducted this audit as part of a larger audit that the Council of
 Inspectors General on Financial Oversight (CIGFO) initiated.
 While we believe NCUA has a culture of protecting sensitive information, we determined NCUA’s
 existing policies and procedures are not sufficiently comprehensive to help the agency protect
 confidential non-public FSOC information from unauthorized disclosure.
 We suggested in this report that NCUA coordinate with FSOC and FSOC member agencies to
 supplement or improve its policies, procedures, and practices. While acknowledging its existing
 policies and procedures are not specific to FSOC information and could be more comprehensive,
 NCUA management believes its policies, procedures, and training are effective. They agreed to
 continue coordinating with FSOC to implement improved policies, procedures, and practices as
 suggested by FSOC.




                                                    12
OIG Semiannual Report                                                             April 1, – September 30, 2012


 OIG-12-10 –August 31, 2012
 Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
 On February 10, 2012, the National Credit Union Administration (NCUA) Office of Inspector General
 (OIG), along with Inspectors General at the U.S. Department of the Treasury (Treasury), the Federal
 Reserve Board (FRB), and the Federal Deposit Insurance Corporation (FDIC), received a request from
 Senator Tim Johnson, Chairman, United States Senate, Committee on Banking, Housing, and Urban
 Affairs, to conduct an audit at each agency under their purview regarding each agency’s examination
 process for small community banks and credit unions.
 Although NCUA defines small credit unions as those having $10 million or less in assets, all natural-
 person credit unions with assets less than $1 billion are examined using the same Risk-Focused
 Examination (RFE) process. Therefore, the results of this report apply to all natural-person credit
 unions with $1 billion or less in assets, covering over 97 percent of all federally insured credit unions.
 In addition, the Senator’s request also asked the Inspectors General to include examination timelines,
 how agencies ensure consistency in the administration of examinations across the country, and the
 ability of regulated institutions to question examination results such as through an Ombudsman, an
 appeals process, or informal channels, and the frequency and success of such appeals.
 This report outlines NCUA’s policies, procedures, and processes for examinations and complaints, and
 provides the OIG’s assessment of NCUA’s adherence to its guidance. Overall, we determined NCUA’s
 examination process has clear standards and policies to conduct examinations. However, we noted
 inconsistencies in the manner in which NCUA carried out the procedures to implement those policies.
 Despite inconsistencies in the manner in which NCUA implemented its examination policies, we are not
 making recommendations to the examination process because NCUA recently implemented a National
 Supervision Policy Manual (NSPM) which we believe addresses the inconsistent procedures we noted
 in the report.
 In addition, we determined NCUA has an adequate appeals process, which allows credit unions to
 question examination results. However, we determined there are operational and organizational
 deficiencies related to compliance monitoring, the regional determination process, the Supervisory
 Review Committee (SRC), and the Ombudsman position, respectively, that we believe NCUA
 management could improve.
 This report makes four recommendations, which the OIG believes can improve NCUA’s examination
 and complaint processes, as well as assist Chairman Johnson and members of the Senate Committee
 on Banking, Housing, and Urban Affairs better understand these areas of NCUA’s programs. NCUA
 Management agreed with all four recommendations and has taken or is planning corrective action to
 address each recommendation.

     AUDITS IN PROGRESS

 Independent Evaluation of the NCUA’s Compliance with the Federal Information Security Management Act
 (FISMA) 2012
 The OIG engaged Mitchell & Titus, LLP to independently evaluate its information systems and
 security program and controls for compliance with the Federal Information Security Management
 Act (FISMA), Title III of the E-Government Act of 2002.




                                                    13
OIG Semiannual Report                                                           April 1, – September 30, 2012


 Mitchell & Titus is evaluating NCUA’s security program through interviews, documentation reviews,
 technical configuration reviews, social engineering testing, and sample testing. NCUA is being
 evaluated against standards and requirements for federal government agencies such as those
 provided through FISMA, National Institute of Standards and Technology (NIST) Special
 Publications (SPs), and OMB memoranda. We anticipate issuing the final report in November
 2012.

 NCUA Financial Statements 2012
 Our current contracting audit firm, KPMG, is working on the 2012 financial statements of the NCUA
 Operating Fund, National Credit Union Share Insurance Fund, the Central Liquidity Facility, the
 Community Development Revolving Loan Fund and the Temporary Corporate Credit Union
 Stabilization Fund (TCCUSF).
 The NCUA Operating Fund was established as a revolving fund managed by the NCUA Board for the
 purpose of providing administration and service to the federal credit union system. The National Credit
 Union Share Insurance Fund was established as a revolving fund managed by the NCUA Board to
 insure member share deposits in all Federal credit unions and qualifying state credit unions. The CLF
 was established as a mixed ownership government corporation managed by the NCUA Board to
 improve general financial stability by meeting the liquidity needs of credit unions. The purpose of the
 Community Development Revolving Loan is to stimulate economic activities in the communities served
 by low-income credit unions. This in turn will result in increased income, ownership and employment
 opportunities for low-wealth residents and other economic growth. The TCCUSF, established in 2009,
 allows NCUA to borrow money from the Treasury to pay for corporate credit union losses, and then pay
 back the Treasury over time with funds obtained from assessments on federally insured credit unions.
 We expect to issue our report in February 2013.

 Material Loss Reviews
 The Federal Credit Union Act requires the NCUA OIG to conduct a Material Loss Review (MLR) of an
 insured credit union if the loss exceeds $25 million. We have one MLR on Telesis that matches this
 criterion. In addition, the Dodd-Frank Wall Street Reform and Consumer Protection Act requires the
 OIG to assess all losses to the NCUSIF under the $25 million threshold and determine if unusual
 circumstances warrant a MLR. We determined that O.U.R. and Eastern New York federal credit unions
 met this criterion and elected to conduct MLRs.
 For each of these MLRs, we will review to (1) determine the cause(s) of the credit union’s failure and
 the resulting loss to the NCUSIF; and (2) assess NCUA’s supervision of the credit union. To achieve
 these objectives, we will analyze NCUA examination and supervision reports and related
 correspondence; interview management and staff from NCUA Regional offices; and review NCUA
 guidance, policies and procedures, NCUA Call Reports, and Financial Performance Reports.




                                                   14
OIG Semiannual Report                                                            April 1, – September 30, 2012


 Accounting for Share Insurance Fund Losses
 NCUA has several methods for accounting for losses and failures of credit unions. Accounting for
 losses and failures depends on whether NCUA is recording a loss, assistance, merger or
 liquidation. Credit unions may close through a variety of methods, some voluntary and some
 involuntary.
 Voluntary closures include voluntary liquidations and unassisted mergers. Both federal and state
 chartered credit unions may also convert to banks and some state chartered credit unions may
 convert to private insurance. Involuntary closures include involuntary liquidations (including
 purchase and assumptions) and assisted mergers. Under certain circumstances, NCUA may
 provide “Section 208 assistance” to a credit union. This may entail a loan to the credit union or the
 purchase of some credit union assets. These may produce a loss to the NCUSIF. The objective of
 our review is to determine: (1) NCUA’s methodology for identifying and tracking credit union
 failures and losses to the NCUSIF; (2) what constitutes a loss to the NCUSIF; (3) when does NCUA
 recognize and report the loss; and (4) how NCUA identifies, tracks and classifies the various types
 of credit union closures, such as failures, mergers, purchase and assumptions, and liquidations.

 Audit of NCUA’s Use of the Delphi Financial Management System versus the SAP R/3 Enterprise
 Resource Planning System
 The NCUA OIG conducted an audit to determine why NCUA has not fully implemented the Delphi
 Financial Management System (Delphi) and continues to use the SAP R/3 Enterprise Resource
 Planning (SAP). To accomplish this audit, we reviewed Office of Management and Budget
 Memoranda pertaining to Financial Management Lines of Business, Financial Management
 Systems (FMS), and FMS Shared Service Providers. We also interviewed staff from the NCUA
 Office of the Chief Financial Officer and reviewed NCUA and other documentation pertaining to
 SAP, the Department of Transportation Enterprise Service Center and its Delphi FMS, and NCUA’s
 efforts in transitioning to Delphi.
 We determined NCUA has fully implemented Delphi, but continues to use SAP along with Delphi
 because SAP fulfills other financial management functions and human resource functions.
 Based on NCUA’s current and planned use of Delphi and SAP and the significantly reduced
 resources necessary to concurrently maintain SAP, we did not make any recommendations. In its
 response, NCUA management indicated that when Delphi went live in January 2010, it gave users
 a more functional management system than any other system NCUA had previously used. NCUA
 management also indicated there will be additional enhancements to the agency’s management
 systems which will eventually allow NCUA to eliminate SAP. This report was issued after the
 semiannual period on October 11, 2012.




                                                    15
OIG Semiannual Report                                                        April 1, – September 30, 2012


 SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

 As of September 30, 2012, below is a list of OIG reports with unimplemented recommendations where
 management has agreed to implement corrective action but has not completed. This information is
 based on (1) information supplied by NCUA Office of Examination and Insurance and (2) the OIG’s
 report recommendation tracking system.


 Report Number, Title and Date
 OIG-10-20 OIG Capping Report on Material Loss Reviews, November 23, 2010


 Significant Recommendations Open and Brief Summary
 On November 23, 2010 the OIG issued report #OIG-10-20 titled OIG Capping Report on Material Loss
 Reviews. There are 4 open recommendations related to the examination and supervision procedures
 for overseeing credit unions.     These issues include documentation, call reports, third party
 relationships, exam procedures, and regulatory guidance. We have determined that NCUA has made
 significant progress and is in various stages of implementing corrective action on all 4 of these
 recommendations.




                                                 16
OIG Semiannual Report                                                             April 1, – September 30, 2012


     REPORT ON CREDIT UNION LOSSES UNDER MATERIALITY LEVEL OF $25 MILLION

     Section 988 of P.L. 111-203, the “Dodd-Frank Wall Street Reform and Consumer Protection
     Act” did two things relative to material loss reviews (MLR) of failed credit unions.
     First, the threshold for a mandated material loss review was raised to $25 million or greater loss
     to the National Credit Union Share Insurance Fund (NCUSIF or SIF) starting on the
     implementation date of the Act (July 21, 2010) and going forward.
     Second, the NCUA OIG is required to (1) perform limited reviews of all credit union failures
     under the threshold to assess whether an in-depth review (consistent with the scope of a
     material loss review) is warranted and (2) report to the National Credit Union Administration
     Board and the Congress every 6 months on the results of the limited reviews and the timeframe
     for performing any in-depth reviews we determine are necessary.
     This report on losses not reaching $25 million covers the six-month period from April 1, 2012 to
     September 30, 2012. For all losses to the SIF under the MLR threshold, we determined (1) why
     NCUA initiated assistance and (2) whether any unusual circumstances existed that might
     warrant an in-depth review of the loss.
     For each limited review, we performed procedures that included, but were not limited to: 1)
     obtaining and analyzing the regulator’s supervisory memorandum and other pertinent
     documents; 2) preparing a schedule of CAMEL ratings assigned to the institution through full
     scope or other examinations during the five years preceding the failure; 3) conducting interviews
     as needed; 4) inquiring about any investigative actions that were taken, planned, or considered
     involving credit union officials or others; and 5) analyzing supervisory history and other review
     methods.
     We conducted limited reviews of four failed credit unions that incurred losses to the NCUSIF
     under $25 million between April 1, 2012 and September 30, 2012. Based on those limited
     reviews, we determined that none of the losses warranted conducting additional work. We
     based our conclusion on our determination that either 1) no unusual circumstances presented
     themselves in our review, or 2) we had already addressed the reasons identified for failure in
     recommendations to the agency in previous MLR reports.
     The chart below provides details on the four credit union losses to the NCUSIF of less than $25
     million. It provides details on the credit union such as the date of failure, the estimated loss to
     the NCUSIF, and grounds for conservatorship, merger, or other factors. The chart also provides
     our decision whether to terminate or proceed with a full-scope MLR of the credit union.




                                                     17
OIG Semiannual Report                                                                     April 1, – September 30, 2012




                                 DECISIONS REGARDING LOSSES LESS THAN $25 MILLION
                                                               Est. Loss to          Grounds for the NCUA
    Decision*    Credit Union       Region    Loss Date
                                                                 NCUSIF                  Appointment

                                                                              Insolvent due to unsafe and
                                                                              unsound management practices that
                                                                              included management’s inability to
                  WAUSAU                                                      correct issues related to lending,
                    Postal                                                    asset/liability, interest rate risk
   Terminate                          IV      5/18/2012         $140,000
                 Employees                                                    management, compensation and
                 Credit Union                                                 benefits, corporate credit card, debt
                                                                              consolidation loans, outdated or
                                                                              inadequate policies, modifications of
                                                                              insider loans, and profitability.

                 Branch 825                                                   Insolvent due to unsafe and
                   N.A.L.C.                                                   unsound management practices
   Terminate     Credit Union         IV      6/11/2012         $229,650
                                                                              related to suspicious activity
                                                                              conducted by a former manager.

                     AM                                                       Insolvent due to unsafe and
                 Community                                                    unsound management practices
   Terminate     Credit Union         IV      7/30/2012          $62,000
                                                                              related to management’s inability to
                                                                              manage its MBL program.

                                                                              Insolvent due to unsafe and
                      CR                                                      unsound management practices
                  Community                                                   related to the credit union’s high-risk
                  First Credit                                                membership, high delinquency and
   Terminate                          IV      8/30/2012         $350,000
                     Union                                                    loan loss rates, inadequate net
                                                                              worth, lack of qualified management
                                                                              and staff, and an inability to attract
                                                                              volunteers and qualified staff.

     *Criteria for the decisions included: (1) dollar value and/or percentage of loss; (2) institutions
     background, such as charter type and history, geographic location, affiliations, business
     strategy; (3) uncommon cause of failure based on prior MLR findings; (4) unusual supervisory
     history, including the nature and timing of supervisory action taken, noncompliance with
     statutory examination requirements, and/or indications of rating disagreements between the
     state regulator and NCUA; and (5) other, such as apparent fraud, request by NCUA Chairman
     or management, Congressional interest, or IG request.




                                                          18
OIG Semiannual Report                                                            April 1, – September 30, 2012


 PEER REVIEWS

 October 1, 2011 through March 31, 2012
 Government Auditing Standards require audit organizations that perform audits and attestation
 engagements of federal government programs and operations undergo an external peer review every
 three years. The objectives of an external peer review include a review of an audit organization’s
 system of quality control to determine not only the suitability of the design, but also whether the audit
 organization is in compliance with its quality control system so as to provide reasonable assurance the
 audit organization conforms to applicable professional standards.

 External Peer Review of NCUA OIG Office of Audit
 Although the NCUA OIG did not undergo an external peer review during the current semiannual period,
 the U.S. Securities and Exchange Commission (SEC) OIG completed our most recent peer review on
 May 7, 2010 for the three-year period ending October 31, 2009. The SEC OIG issued its report entitled
 NCUA System Review and rendered the opinion that the system of quality control for the NCUA OIG,
 Office of Audit, was suitably designed and complied with, thus providing reasonable assurance the
 system of controls conformed with applicable professional standards in all material respects. As a
 result, we received a peer rating of pass. In addition, we have no outstanding recommendations from
 this external peer review. A copy of this most recent peer review report is included herein as Appendix
 A.

 External Peer Review of National Labor Relations Board OIG Office of Audit
 The NCUA OIG completed a peer review of the National Labor Relations Board (NLRB) OIG. On
 October 31, 2011, we issued an external peer review report for the audit function of the NLRB OIG for
 the three year period ended September 30, 2011. The NLRB received a rating of pass and has no
 outstanding recommendations related to the peer review report.




                                                    19
OIG Semiannual Report                                                             April 1, – September 30, 2012




                                    INVESTIGATIVE ACTIVITY

     In accordance with professional standards and guidelines established by the United States
     Department of Justice, the NCUA OIG Office of Investigations conducts investigations of
     criminal, civil, and administrative wrongdoing involving the agency’s programs, operations, and
     personnel. Our investigative program focuses on activities designed to promote efficiency,
     effectiveness, and accountability, as well as fighting fraud, waste, and abuse. In addition to our
     efforts to deter misconduct and promote integrity awareness within the agency and among its
     employees, we investigate referrals and direct reports of employee misconduct. Investigations
     may involve possible violations of regulations involving Federal employee responsibilities and
     conduct, agency policies, Federal criminal law, and other statutes and regulations pertaining to
     the activities of NCUA employees.
     Moreover, we receive complaints from credit union officials and their members which involve
     NCUA employee program responsibilities. We examine these complaints and determine if there
     is any indication of NCUA employee wrongdoing or misconduct. If not, we refer the complaint to
     the NCUA Office of Consumer Protection (OCP) or the appropriate regional office for response,
     or close the matter if contact with the OCP or the regional office indicates that the matter has
     already been appropriately handled.
     The Office of Investigations also provides instructional guidance to new or newly appointed
     NCUA employees about the respective roles and responsibilities of the OIG and NCUA
     employees with regard to criminal, civil, and administrative wrongdoing. This provides for vital
     communication between NCUA employees and the OIG. The overall effect is a stronger
     agency.

     OIG Hotline Contacts
     The OIG has and maintains a 24 hour toll free hotline to enable employees and citizens to call in
     and provide information about suspected fraud, waste, and abuse or mismanagement involving
     agency programs or operations. We also receive complaints from an off-site post office box,
     electronic mail, and facsimile messages. In addition, the Office of Investigations recently
     introduced an electronic hotline form to the NCUA intranet. This electronic form will open an
     additional venue for confidential employee communication with the OIG. All information
     received from any of these sources is referred to as a hotline contact. The OIG hotline program
     is administered to by our Office Manager, under the direction of the Director of Investigations.
     The majority of hotline contacts we receive are from consumers seeking help with problems
     encountered within their respective credit unions. As discussed above, these contacts are
     generally referred to the OCP and regional offices.




                                                    20
OIG Semiannual Report                                                             April 1, – September 30, 2012


     During this reporting period, the hotline received the following:


                                        Hotline Complaints



                                                                          Phone Contacts
                                                                          Voicemail / Facsimile
                                                                          Email
                                                                          Written correspondence




             Phone contacts                 36
             Voicemail / Facsimile          58
             Email                         162
             Written correspondence         15
             Total:                        271



 INVESTIGATIONS

 Employee Misconduct / Possible Time and Attendance Fraud and Conflict of Interest
 During the reporting period, the OIG received an allegation that an NCUA employee used sick leave
 to fulfill remunerative instructional assignments for an outside entity. Additionally, it was alleged
 that the employee used and distributed NCUA materials for the outside instructional assignments.
 The investigation revealed that the employee improperly used some sick leave hours to fulfill his
 outside instructional assignments. However, the investigation did not substantiate that the
 employee also used NCUA instructional materials for his outside employment. The investigation
 resulted in the employee retiring from federal employment. The OIG closed the investigation during
 the reporting period.

 Employee Misconduct / False Statements
 During this reporting period, the OIG received allegations that a senior NCUA employee made false
 statements with regard to a state chartered credit union and the state regulator’s office. The
 investigation found that the senior NCUA employee’s statements were not false. Rather, the
 investigation determined that the state regulator improperly provided confidential NCUA documents
 to the state chartered credit union. The OIG closed the investigation during the reporting period
 and posted a redacted copy of the report on its website.


                                                      21
OIG Semiannual Report                                                           April 1, – September 30, 2012


 Employee Misconduct / Alleged Sexual Harassment and Retaliation
 During this reporting period, the OIG received allegations that an NCUA examiner made
 inappropriate and potentially harassing comments to credit union staff members during two
 examinations. Additionally, credit union management alleged that the NCUA examiner downgraded
 the credit union’s CAMEL scores in retaliation for the management filing a complaint about the
 examiner’s alleged misconduct. The investigation did not substantiate either allegation. The OIG
 closed the investigation during the reporting period.

 Employee Misconduct / Misuse of Government Property
 During this reporting period, the OIG received an allegation that an NCUA employee used her
 government-issued travel card for personal purchases, amounting to approximately $7000.00 in
 charges. The investigation is ongoing.

 Employee Misconduct / False Statements
 During the reporting period, the OIG received allegations regarding the circumstances surrounding
 an NCUA employee’s relocation to another geographical location and the employee’s subsequent
 filing of improper travel claims. The investigation is ongoing.


 PEER REVIEWS

 April 1 through September 30, 2012
 Section 6(e)(7) of the Inspector General Act of 1978, as amended, requires those OIGs that have
 been granted statutory law enforcement authority pursuant to the Act, to be periodically reviewed by
 another OIG or a committee of OIGs (Peer Review). The purpose of the peer review is to ascertain
 whether adequate internal safeguards and management procedures exist to ensure that the law
 enforcement powers conferred by the 2002 amendments to the Act are properly exercised. The
 NCUA OIG does not have statutory law enforcement authority; therefore, our investigative
 organization is not required to have a peer review and, to date has neither undergone a peer review
 nor conducted a peer review of another OIG. However, the NCUA Office of Investigations is
 scheduled for its first peer review in the third quarter 2013.




                                                   22
OIG Semiannual Report                                                               April 1, – September 30, 2012




                         LEGISLATIVE AND REGULATORY REVIEWS

 Section 4(a) of the Inspector General Act requires the Inspector General to review existing and
 proposed legislation and regulations relating to the programs and operations of the NCUA and to make
 recommendations concerning their impact.           Moreover, we routinely review proposed agency
 instructions and other policy guidance, in order to make recommendations concerning economy and
 efficiency in the administration of NCUA programs and operations and the prevention and detection of
 fraud, waste and abuse.
 During the reporting period, the OIG reviewed 27 items, including final and proposed legislation (see
 chart below), proposed and final regulations (see chart below), two (2) Regulatory Alerts, three (3)
 Legal Opinion Letters, and two (2) new or revised NCUA Instructions. The OIG also responded to five
 (5) Freedom of Information Act requests.


                         SUMMARY OF STATUTES AND REGULATIONS REVIEWED

           Legislation                                         Title
                          “A bill to address fee disclosure requirements under the Electronic Fund
                          Transfer Act, to amend the Federal Deposit Insurance Act with respect to
                          information provided to the Bureau of Consumer Financial Protection, and for
       S. 3394            other purposes.”
                          “A bill to amend the Federal Deposit Insurance Act and the Federal Credit
                          Union Act with respect to privilege of information provided to Federal and
       H.R. 6125          State agencies, and for other purposes.”
                          “A bill to amend the Federal Home Loan Bank Act to allow non-Federally
       H.R. 6105          insured credit unions to become members of a Federal Home Loan Bank.”

       H.R. 2146          “Digital Accountability and Transparency Act of 2011”

       H.R. 3393          “The Capital Access for Small Business and Jobs Act”

       S. 2151            “SECURE IT”

       S. 2105            “Cybersecurity Act of 2012”

       H.R. 4263          “SECURE IT Act of 2012”

       H.R. 4631          “Government Spending Accountability Act of 2012”
                          “Agency Conferences and Conventions Operating Under Necessary
       H.R. 4454          Transparency Act of 2012”
                          “A bill to prohibit an agency or department of the United States from
                          establishing or implementing an internal policy that discourages or prohibits
                          the selection of a resort or vacation destination as the location for a
       S. 2469            conference or event, and for other purposes.”




                                                    23
OIG Semiannual Report                                                                April 1, – September 30, 2012



          Regulations/Rulings/IRPS                                     Title
                                          Loan Workouts and Nonaccrual Policy, and Regulatory Reporting
       12 CFR Part 741                    of Troubled Debt Restructured Loans (Final Rule)
                                          Eligible Obligations, Charitable Contributions, Nonmember
                                          Deposits, Fixed Assets, Investments, Fidelity Bonds, Incidental
       12 CFR Parts 701, 703, 713, 721,   Powers, Member Business Loans, and Regulatory Flexibility
       723, and 742                       Program (Final Rule)
                                          Asset Thresholds Affecting Regulatory Relief for Small Credit
       12 CFR Part 702, 741, and 791      Unions (Proposed Rule and IRPS with request for comments)
                                          Investment and Deposit Activities (Proposed Rule with request
       12 CFR Part 703                    for comments)
                                          Chartering and Field of Membership Manual for Federal Credit
       12 CFR Part 701                    Unions (Proposed Rule with request for comments)

       12 CFR Part 701                    Pay-Day Alternative Loans (ANPR)
                                          Appraisals for Higher-risk Mortgage Loans (Proposed Rule with
       12 CFR Part 722                    request for public comment)
                                          Maintaining Access to Emergency Liquidity (NPRM with request
       12 CFR Part 741                    for comment)
       12 CFR Parts 700, 701, 741, and    Definition of Troubled Condition (Proposed Rule with Request for
       750                                comments)




                                                       24
OIG Semiannual Report                                                                April 1, – September 30, 2012



                             TABLE I: INSPECTOR GENERAL ISSUED REPORTS
                                        WITH QUESTIONED COSTS

                                                              Number of Questioned     Unsupported
                                                               Reports    Costs           Costs


                For which no management decision
           A.   had been made by the start of the
                reporting period.                                0          $0               $0

           B.   Which were issued during the
                reporting period.                                0          0                 0



                Subtotals (A + B)                                0          0                 0

           C.   For which management decision was
                made during the reporting period.                0          0                 0


                (i) Dollar value of disallowed costs             0          0                 0

                (ii) Dollar value of costs not allowed
                                                                 0          0                 0
                For which no management decision
           D.   has been made by the end of the
                reporting period.                                0          0                 0
                Reports for which no management
           E.   decision was made within six months
                of issuance.                                     0          0                 0

 Questioned costs are those costs the OIG has questioned because of alleged violations of laws,
 regulations, contracts, or other agreements; findings which at the time of the audit are not supported by
 adequate documentation; or the expenditure for the intended purpose is unnecessary or unreasonable.

 Unsupported costs (included in "Questioned Costs") are those costs the OIG has questioned because
 of the lack of adequate documentation at the time of the audit.




                                                         25
OIG Semiannual Report                                                        April 1, – September 30, 2012




                         TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH
                        RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                    Number of        Dollar
                                                                     Reports         Value


                 For which no management decision had been
           A.
                 made by the start of the reporting period.             0              $0


           B.    Which were issued during the reporting period.         0               0



                                    Subtotals (A + B)                   0               0



                 For which management decision was made
           C.
                 during the reporting period.                           0               0


                 (i) Dollar value of recommendations agreed to
                 by management.                                        N/A            N/A


                 (ii) Dollar value of recommendations not agreed
                 to by management.                                     N/A            N/A


                 For which no management decision was made
           D.
                 by the end of the reporting period.                    0               0


                 For which no management decision was made
           E.
                 within six months of issuance.                         0               0

 Recommendations that "Funds to be Put to Better Use" are those OIG recommendations that funds
 could be used more efficiently if management took actions to reduce outlays, de-obligate funds from
 programs/operations, avoid unnecessary expenditures noted in pre-award reviews of contracts, or any
 other specifically identified savings.




                                                    26
OIG Semiannual Report                                                         April 1, – September 30, 2012




                                   TABLE III: SUMMARY OF OIG ACTIVITY
                                    April 1 through September 30, 2012

                                   PART I – AUDIT REPORTS ISSUED

   Report                                                                                      Date
   Number                                          Title                                      Issued

 OIG-12-07        NCUA Financial Statements Audit 2011 (TCCUSF)                            06/22/2012

 OIG-12-08        Review of NCUA’s Red Flag Reports                                        06/25/2012
                  Review of NCUA’s Policies, Procedures and Practices Regarding Financial
 OIG-12-09        Stability Oversight Council Information                                 06/27/2012
                  Review of NCUA’s Examination and Complaint Processes for Small Credit
 OIG-12-10        Unions                                                                08/31/2012

                        PART II – AUDITS IN PROGRESS (as of September 30, 2012)

 Independent Evaluation of the NCUA’s Compliance with the Federal Information Security Management Ac
 (FISMA) 2012

 NCUA Financial Statements Audit 2012

 Material Loss Reviews

 Accounting for Share Insurance Fund Losses

 Use of the Delphi Financial Management System versus the SAP R/3 Enterprise Resource System




                                                  27
OIG Semiannual Report                                                                April 1, – September 30, 2012




                                  INDEX OF REPORTING REQUIREMENTS


    Section                                     Data Required                                         Page
                                                                                                       Ref

    4(a)(2)     Review of legislation and regulations                                                   23
                Significant problems, abuses, or deficiencies relating to the administration of
    5(a)(1)     programs and operations disclosed during the reporting period.                          12
                Recommendations with respect to significant problems, abuses or
    5(a)(3)     deficiencies                                                                            12
                Significant recommendations described in previous semiannual reports on
    5(a)(3)     which corrective action has not been completed.                                         16
                Summary of matters referred to prosecution authorities and prosecutions
    5(a)(4)     which have resulted.                                                                 None
                Summary of each report to the Board detailing cases where access to all
    5(a)(5)     records was not provided or where information was refused.                           None

    5(a)(6)     List of audit reports issued during the reporting period.                               27

    5(a)(7)     Summary of particularly significant reports.                                            12

    5(a)(8)     Statistical tables on audit reports with questioned costs.                              25
                Statistical tables on audit reports with recommendations that funds be put to
    5(a)(9)     better use.                                                                             26
                Summary of each audit report issued before the start of the reporting period
                for which no management decision has been made by the end of the
    5(a)(10)    reporting period.                                                                    None
                Description and explanation of reasons for any significant revised
    5(a)(11)    management decision made during the reporting period.                                None
                Information concerning significant management decisions with which the
    5(a)(12)    Inspector General is in disagreement.                                                None
                An appendix containing the results of any peer review conducted by another
                OIG during the reporting period or, if no peer review was conducted within
                that reporting period, a statement identifying the date of the last peer review
    5(a)(14)    conducted by another OIG.                                                               19
                List of outstanding recommendations from any peer review conducted by
    5(a)(15)    another OIG that have not been fully implemented.                                    None
                A list of any peer reviews conducted by the IG of another OIG during the
                reporting period, including a list of any outstanding recommendations made
    5(a)(16)    that remain outstanding or have not been fully implemented.                             19




                                                        28
OIG Semiannual Report                                           April 1, – September 30, 2012


             APPENDIX A: NCUA SYSTEM REVIEW REPORT (SEC OIG REPORT NO. 478)




                                           29
OIG Semiannual Report        April 1, – September 30, 2012




                        30
OIG Semiannual Report        April 1, – September 30, 2012




                        31
OIG Semiannual Report        April 1, – September 30, 2012




                        32
OIG Semiannual Report        April 1, – September 30, 2012




                        33
